June 6, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                                      E-Signed by Michael A. Magalski
                                   VERIFY authenticity with eSign Desktop




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Alert – Accenture Federal Services Contracting
                           Practices (Report Number SM-MA-13-005)

This management alert presents potential fraud risks associated with Accenture Federal
Services Contracting Practices (Project Number 12YG038CA001) that were compiled
from prior U.S. Postal Service Office of Inspector General audits and investigations.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Patrick R. Donahoe
    Joseph Corbett
    Thomas J. Marshall
    Corporate Audit and Response Management
Accenture Federal Services Contracting Practices                                                     SM-MA-13-005




Introduction

As a result of a recent U. S. Postal Service Office of Inspector General (OIG) audit on
Accenture Federal Services contracts 1, prior OIG investigations, U.S. Department of
Justice (DOJ) settlements, and Defense Contract Audit Agency (DCAA) audits, we have
identified information the U.S. Postal Service should consider when dealing with this
supplier in the future.

Accenture Federal Services, LLC 2 (Accenture) is a Postal Service supplier who provides
information technology (IT), professional, and training services. Accenture is included
on the Postal Service’s list of top 10 suppliers, with payments of about $135 million
made in fiscal year (FY) 2012. The Postal Service has four active contracts with
Accenture and has paid the supplier over $214 million on these contracts. Accenture is
also a supplier in the Postal Service’s Enterprise Technology Services (ETS) program. 3

In 2007, the DOJ joined in several qui tam lawsuits 4 alleging that Accenture, LLP, along
with other U.S. government suppliers, violated the False Claims Act. 5 Specifically, the
DOJ alleged that several suppliers had solicited or made payments of money and other
things of value, known as ‘alliance benefits,’ to companies with whom they had global
‘alliance relationships’ or an agreement to work together. The government’s complaints
asserted that these alliance relationships and the resulting alliance benefits amounted
to kickbacks and undisclosed conflict of interest relationships. The DOJ also alleged
that suppliers engaged in defective pricing, whereby suppliers provided incomplete or
inaccurate information to contracting officers during contract negotiations. The Postal
Service received about $21 million in settlements in connection with these lawsuits.

In 2011, the DOJ settled a related qui tam lawsuit with Accenture, LLP, who agreed to
pay the U.S. government $63.7 million to resolve allegations that it received kickbacks
for its recommendations of hardware and software to the government, fraudulently
inflated prices, and rigged bids in connection with federal IT contracts. The DOJ did not
bring claims on behalf of the Postal Service in the lawsuit because the Postal Service
knowingly allowed Accenture to charge handling fees for acquiring third-party hardware
and software.




1
   Accenture Federal Services Contracts (Report Number SM-MA-13-001, dated December 17, 2012).
2
   Previously Accenture, LLP.
3
   The ETS program was designed to provide technology solutions in three areas: IT Solutions Development Support,
Enterprise Wide Business System Development, and virtual development centers.
4
   A lawsuit brought by an individual on behalf of the U.S. government seeking to expose, and thereby stop, wasting
federal funds.
5
   United States ex rel. Norman Rille and Neal Roberts v. Accenture LLP, Accenture Ltd., and Proquire LLC, initially
filed September 17, 2004.
                                                             1
Accenture Federal Services Contracting Practices                                                         SM-MA-13-005



Further, DCAA issued reports detailing deficiencies in Accenture’s estimating and
timekeeping systems. Specifically, in June 2012, the DCAA determined that Accenture’s
Postal Service cost-estimating system was inadequate, noting eight significant
deficiencies. 6 Also, in a report issued in August 2010, the DCAA identified three
weaknesses in Accenture’s timekeeping practices. 7

Suspensions and debarments 8 are examples of administrative remedies that federal
agencies can take to protect against future losses from supplier fraud, waste, abuse,
poor performance, and noncompliance with contract provisions or applicable laws. In
addition, the Postal Service may terminate existing contracts if a supplier defaults in its
performance of a contract without correction or if it is in the best interest of the Postal
Service. 9

Conclusion

Accenture’s involvement in several improper contracting practices creates an immediate
risk of future fraud and abuse in Postal Service contracts. As a result of prior OIG audits
and investigations, DOJ settlements, and the DCAA’s findings of inadequacies in the
supplier’s cost-estimating and timekeeping systems, the supplier has demonstrated an
absence of business ethics, a lack of transparency, and insufficient internal controls in
its business dealings with the Postal Service. The Postal Service should consider
Accenture for suspension or debarment and review existing contracts to determine
whether the contracts warrant termination. This action would protect the Postal
Service’s financial interest from unethical, dishonest, or otherwise irresponsible supplier
practices.

U.S. Department of Justice Settlements

The Postal Service received about $21 million 10 from the DOJ’s settlements of several
qui tam lawsuits with IT suppliers regarding allegations of defective pricing and
kickbacks. The kickback allegations were part of a larger investigation of government
technology vendors and consultants (including Accenture) and in 2011 the DOJ settled
its lawsuit with Accenture. The supplier agreed to pay $63.7 million to resolve
allegations that it received kickbacks for its recommendations of hardware and software
to the government, fraudulently inflated prices, and rigged bids in connection with
federal IT contracts. The Postal Service was not included in the $63.7 million settlement
because it allowed Accenture to charge handling fees for purchasing third-party
hardware and software on its behalf. In addition, the DOJ did not include alliance

6
  Audit of Accenture Federal Services, LLC's Estimating System and Related Internal Controls (Report Number
CA-CAR-12-008, dated June 26, 2012).
7
  Accenture Labor Floor Check for FY 2009 (Report Number CA-CAR-10-013, dated September 28, 2010).
8
  A suspension is an exclusion from contracting and subcontracting for 1 year, unless extended, due to specified
reasons or the pendency of a debarment proceeding. A debarment is an exclusion from contracting and
subcontracting for a longer period, commensurate with the seriousness of the offense, failure, or inadequacy of
performance. The period should generally not exceed 3 years.
9
  Supplying Principles and Practices, clause B-12, Termination for Convenience or Default, dated March 2006.
10
   In this settlement, the Postal Service received about $20 million from two suppliers for alleged defective pricing and
about $1 million from three other suppliers for alliance benefits. Accenture was not one of the suppliers.


                                                           2
Accenture Federal Services Contracting Practices                                        SM-MA-13-005



benefits paid to Accenture on Postal Service contracts in its settlement because these
payments were minimal.

Specific allegations against Accenture include the supplier selling third-party products to
government customers for more than what it paid without providing notification of the
markup. Accenture included these markups in its proposals to the Postal Service as
material handling fees. Although the Federal Acquisition Regulation (FAR) specifically
prohibits payment of fees for materials on certain contracts, 11 Postal Service Supplying
Principles and Practices are silent on material handling fees and contracting officials
agreed to the fees. The OIG investigation identified about $71,000 in material handling
fees. Further allegations included alliance benefit schemes where vendors made
payments to Accenture for recommending their products to Accenture’s customers. An
OIG investigator stated that their investigation identified about $27,000 in payments
pertaining to Postal Service contracts. The payments were equal to .04 percent of the
total settlement amount; therefore, the DOJ did not include these amounts in its
settlement with Accenture.

The Code of Federal Regulations (CFR) indicates that causes for suspension or
debarment include any offense indicating a lack of business integrity or any cause of a
serious and compelling nature that suspension or debarment is warranted. 12 Although
the DOJ excluded the Postal Service from its settlement, Accenture’s actions
demonstrate questionable business integrity. The Postal Service should take
appropriate action to protect its interest and prevent recurrence.

Accenture’s Estimating and Timekeeping System

The DCAA conducted an audit of Accenture’s Postal Service cost-estimating system in
June 2012 and determined that it was inadequate, with eight significant deficiencies.
The DCAA also reviewed Accenture’s timekeeping practices in 2010 and reported three
weaknesses, including inadequate timekeeping practices, labor reconciliation issues,
and a lack of adequate management review of employees’ final timesheets.

During the cost-estimating system audit the DCAA noted that Accenture refused to
provide historical cost and pricing data on the projects it had completed for the Postal
Service when requested. Accenture stated that it did not rely on historic actual costs
when estimating task order proposals, therefore, that data was not germane to the
scope of the DCAA audit.

The OIG issued a management advisory report in December 2012 to follow up on the
DCAA’s eight cost-estimating system recommendations and, although Accenture had
initiated policy changes to address six of eight recommendations identified in the DCAA
report, two recommendations remained outstanding. Accenture’s policy updates did not
fully address the recommendations to conduct periodic reviews of its cost-estimating
system or to develop a monitoring process that compares estimated costs to actual

11
     FAR clause 52.232-7, Payments Under Time and Materials and Labor Hour Contracts.
12
     39 CFR §601.113(e)(1) and (i)(1, 2).


                                                        3
Accenture Federal Services Contracting Practices                               SM-MA-13-005



costs. Management stated in its comments on that report that they will work with
Accenture to implement corrective action by February 2013 for the remaining two items
the DCAA recommended. The supplier recently revised its policy to indicate that it will
review its cost-estimating system every 3 years; however, and more importantly, the
supplier has not provided evidence that it is comparing its cost estimates to actual
costs.

Accurate cost estimates are critical to ensuring that contract costs are reasonable and
allowable. If Accenture does not compare estimated costs to actual costs incurred, there
are no controls to ensure that the estimate was accurate and the estimating process is a
valid predictor of actual costs. The supplier’s insufficient controls to ensure transparency
of its cost information raise additional concerns.

Other federal agencies are protected by rigorous cost-estimating systems and cost
reimbursement requirements defined in the FAR and the Defense Federal Acquisition
Regulation Supplement (DFARS). 13 Accenture uses a separate cost-estimating system
for Postal Service contracts than that used for FAR agency contracts. As such, it is
likely that the Postal Service is at greater risk of its Accenture proposals being
overpriced than the rest of the federal government.

Further, during the DCAA’s review of Accenture’s timekeeping practices they found that
12 of 52 Accenture employees (23 percent) were either not completing timesheets or
completing timesheets before performing work, management did not adequately review
employee timesheets, and there were numerous incidents where labor payroll records
did not reconcile with employee timesheets.

A good timekeeping system provides for controls to ensure that employees’
timesheets are completed and reviewed on a timely basis and reconciled to labor
reports to ensure accuracy. Accenture’s timekeeping system weaknesses increase the
risk of inaccurate timesheets, payroll records, and contract costs.

Recommendations

We recommend the vice president, Supply Management:

1. Consider suspending or debarring Accenture Federal Services, LLC from future
   Postal Service contracts.

2. Review existing contracts with Accenture Federal Services, LLC to determine
   whether they should be terminated.




13
     FAR 15.407-5 and DFARS 215.407-5.


                                                   4
Accenture Federal Services Contracting Practices                              SM-MA-13-005




Management’s Comments

Management generally agreed with the findings and recommendations. Regarding
recommendation 1, management considered the evidence submitted and determined
that suspension or debarment of Accenture was not warranted. The Postal Service's
debarring official further stated that she based her decision on mitigating factors,
combined with the fact that Accenture has stopped their business practices regarding
alliance partners; received affirmative responsibility determinations showing that no
other federal agency suspended or debarred them; addressed and corrected identified
deficiencies in their cost-estimating and timekeeping systems; and assured Postal
Service management that they are operating with transparency, integrity, and openness
in their business dealings.

Regarding recommendation 2, because of the decision not to suspend or debar
Accenture, management concluded that terminating existing contracts is not warranted.

In addition, management stated that Accenture has taken meaningful steps in
addressing issues and initiating policy on the concerns and recommendations that were
part of the OIG and DCAA reports. Specifically, they provided a presentation asserting
they have a business ethics and compliance program, changed its policy to address
cost-estimating system deficiencies, and modified their timekeeping software. Also,
Accenture’s chief executive officer and managing director, General Counsel, provided
letters to the Postal Service acknowledging the seriousness of the allegations. See
Appendix A for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Therefore, we are
closing the recommendations with the issuance of this report. The OIG will conduct
follow-up audits on Accenture’s Postal Service contracts and related internal controls,
including their timekeeping and costs estimating systems.




                                                   5
Accenture Federal Services Contracting Practices               SM-MA-13-005



                           Appendix A: Management's Comments




                                                   6
Accenture Federal Services Contracting Practices       SM-MA-13-005




                                                   7
Accenture Federal Services Contracting Practices       SM-MA-13-005




                                                   8
Accenture Federal Services Contracting Practices       SM-MA-13-005




                                                   9
Accenture Federal Services Contracting Practices        SM-MA-13-005




                                                   10
